   March 24, 2006




Acquisition
Procurement Procedures Used for
F-16 Mission Training Center
Simulator Services
(D-2006-065)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ASC                   Aeronautical Systems Center
FAR                   Federal Acquisition Regulation
MTC                   Mission Training Center
OIG                   Office of Inspector General
ODIG-AUD              Office of the Deputy Inspector General for Auditing
                             INSPECTOR GENERAL
                           DEPARTMENTOFDEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                         March 24,2006
MEMORANDUM FOR AIR FORCE, OFFICE OF THE ASSISTANT SECRETARY
               (ACQUISITION)

SUBJECT: Report on Procurement Procedures Used for F-16 Mission Training Center
         Simulator Services (Report No. D-2006-065)

      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides (6 14) 75 1- 1400 extension 2 11 or Ms. Amy J. Frontz at
(614) 75 1- 1400 extension 2 13. See Appendix E for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                        p            h Il*fl&
                                      For Paul J. Granetto. CPA
                                      Assistant Inspector General
                                       Defense Financial Audit
                                                Service
                Department of Defense Office of Inspector General
Report No. D-2006-065                                                     March 24, 2006
   (Project No. D2005-D000FJ-0171.000)

                Procurement Procedures Used for F-16 Mission
                     Training Center Simulator Services

                                  Executive Summary

Who Should Read This Report and Why? This report should be read by Air Force
contracting officers and senior acquisition officials. It discusses problems with using
commercial acquisition procedures to acquire services unique to DoD. In addition, it
discusses a modification to the contract for F-16 Mission Training Center simulator
services to allow the contractor to recoup development costs.

Background. We performed this audit at the request of the Under Secretary of Defense
for Acquisition, Technology, and Logistics. An internal study was commissioned in
November 2004 in response to admissions by Darleen Druyun, Principal Deputy
Assistant Secretary of the Air Force (Acquisition and Management) from 1993 to 2002,
that she may have allowed personal interests to affect her judgment on acquisition
decisions she made.

The F-16 Mission Training Center program was established to provide simulator services
that include cockpits that simulate the form, fit, and function of the F-16 aircraft. The
program also provides training services with 360 degree visual systems and high fidelity
flight and weapon simulations. The Air Force used a firm-fixed-price, requirements-type
contract to acquire the F-16 MTC services. The requirements were established as
indefinite delivery and indefinite quantity. The minimum order would cost the Air Force
$74.4 million to have the F-16 Mission Training Center developed and delivered to two
sites and for hourly simulator services from December 2001 until the end of the basic
contract term in June 2006. The maximum order quantity for F-16 Mission Training
Center simulator services was a total of 61 cockpits at 18 individual sites. The
61 cockpits included a 4-cockpit mobile Mission Training Center. The basic contract
term was 7 years with 8 additional award term years. The ceiling price for the contract
was $359 million if the Air Force ordered the maximum quantity and exercised all
8 award term years.

Results. The Air Force elected to purchase F-16 Mission Training Center simulator
services following procedures that are more frequently used by contracting officers to
buy services in the commercial marketplace. These procedures restricted the Air Force
from determining whether the price it was charged was reasonable for F-16 simulator
services. Additionally, the Air Force placed itself at a disadvantage in the event of a
contract dispute. Federal acquisition policy requires using a firm-fixed-price contract to
acquire commercial services. By using a commercial services contract, the Air Force was
prohibited from requesting certified cost and pricing data (finding A).

The Air Force improperly modified the firm-fixed-price contract for F-16 Mission
Training Center services to pay for nonrecurring (developmental) costs claimed by the
contractor. As a result, the Air Force committed itself to pay $41.6 million above its
minimum contract obligation prior to receiving additional F-16 Mission Training Center
services. In addition, the Air Force received minimal value from the consideration
package it negotiated with the contractor to justify the modification (finding B). See the
Findings section of the report for the detailed recommendations.

Management Comments. The Military Deputy, Office of the Assistant Secretary of the
Air Force (Acquisition) concurred with the recommendations and stated that the next
F-16 Mission Training Service contract would be acquired using a contracting by
negotiation strategy. In addition, the Air Force has eliminated and redistributed the
Principal Deputy Secretary of the Air Force (Acquisition and Management)
responsibilities to more appropriate levels of oversight consistent with the Federal
Acquisition Regulation. The Deputy also will continue to review the acquisition process
in order to implement effective management controls to prevent senior acquisition
personnel from exerting inappropriate influence on contract actions. The Military
Deputy, Office of the Assistant Secretary of the Air Force (Acquisition) comments were
fully responsive. Therefore, no further comments are required. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the report for a complete text of the comments.

Management Actions. On August 19, 2005, we issued an interim results memorandum
requesting that the Air Force discontinue using a commercial acquisition strategy to
acquire F-16 Mission Training Center services. In response, the Air Force established a
senior-level Acquisition Strategy Panel to review the acquisition strategy for the F-16
Mission Training Center. The Air Force agreed to use a noncommercial acquisition
strategy to acquire future F-16 Mission Training Center services.




                                             ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              2

Findings
     A. Use of Commercial Services Contract                             3
     B. F-16 Mission Training Center Contract Modification              7

Appendixes
     A. Scope and Methodology                                           14
         Prior Coverage                                                 14
     B. DoD IG Interim Results Letter                                   15
     C. Air Force Response to DoD IG Interim Results Letter             19
     D. Contractor Request for Equitable Adjustment                     20
     E. Report Distribution                                             22

Management Comments
     Office of the Assistant Secretary of the Air Force (Acquisition)   25
Background
    We performed this audit at the request of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics. An internal study was commissioned in
    November 2004 in response to admissions by Darleen Druyun, Principal Deputy
    Assistant Secretary of the Air Force (Acquisition and Management) from 1993 to
    2002, that she may have allowed personal interests to affect her judgment on
    acquisition decisions she made. This audit focuses on a contract adjustment after
    the initial award.

    F-16 Mission Training Center (MTC). The F-16 MTC program was
    established to provide simulator services that include cockpits that simulate the
    form, fit, and function of the F-16 aircraft. The program is managed by the
    Aeronautical Systems Center (ASC) Headquarters Training Systems Product
    Group located at Wright Patterson Air Force Base in Dayton, Ohio. The F-16
    MTC is intended to be part of a larger Distributed Mission Training system that
    integrates other physically separated and networked system simulations. Each
    F-16 MTC can contain up to four system simulations (cockpits) and their
    associated instructor operator stations, threat stations, modular control equipment
    workstations, and briefing/debriefing systems. The program also provides
    training services with 360 degree visual systems and high fidelity flight and
    weapon simulations.

    Contract for F-16 MTC Simulator Services. In June 1999, the Air Force
    awarded a contract to Lockheed Martin Integrated Systems (hereafter referred to
    as the Contractor) for the acquisition of F-16 MTC simulator services using the
    commercial item acquisition procedures outlined in the Federal Acquisition
    Regulation (FAR) Part 12. The Air Force used a firm-fixed-price,
    requirements-type contract to acquire the F-16 MTC services. The requirements
    were established as indefinite delivery and indefinite quantity. The minimum
    order included one cockpit with limited F-16 MTC simulator services at Shaw Air
    Force Base beginning in December 2001. The minimum order also required an
    upgrade on the original cockpit to full simulation services, three additional
    cockpits with full simulator services at Shaw Air Force Base, and one cockpit
    with full simulator services at Mountain Home Air Force Base in April 2002. The
    minimum order would cost the Air Force $74.4 million to have the F-16 MTC
    developed and delivered to the two sites and for hourly simulator services for the
    basic contract term ending June 2006. The maximum order quantity included
    F-16 MTC simulator services for a total of 61 cockpits at 18 individual sites. The
    61 cockpits included a 4-cockpit mobile Mission Training Center. The basic
    contract term covered 7 years with 8 additional award term years. The ceiling
    price for the contract was $359 million if the Air Force ordered the maximum
    quantity and exercised all 8 award term years.

    The Contractor was required to develop and deliver F-16 MTCs that provide
    simulator services in accordance with Government-approved performance
    specifications. Although this was a contract for simulator services, preparatory
    services (development and testing) were also included in the acquisition to allow
    the Government to conduct training capability assessments and simulation service
    certification prior to the start of actual simulation services. For future orders, the
                                          1
    contract specified a 19-month lead time from the date an order was placed until
    the cockpits and simulation services began. The contract allowed for the
    Contractor to own all of the hardware and software and to be responsible for
    technology upgrades to keep the F-16 MTC consistent, or concurrent, with the
    current F-16 aircraft configuration.

    F-16 MTC Nonrecurring Costs. The contract required the F-16 MTC simulator
    to be developed and tested at the Contractor’s facility prior to delivery. The F-16
    MTC was required to undergo an extensive system validation test in order to
    insure the simulator met training requirements. Upon satisfactory completion of
    the system validation testing, the Contractor’s assessment was required to
    authorize shipment of the F-16 MTC to Shaw Air Force Base. The Contractor’s
    nonrecurring costs occurred during the timeframe that covered development and
    testing until production began. Nonrecurring costs, then, represent development
    costs associated with fielding the F-16 MTC minimum contract quantity.


Objectives
    Our overall audit objective was to determine whether the restructuring of the
    contract for F-16 MTC simulator services was made in accordance with the FAR.
    Specifically, we evaluated whether the equitable price adjustment made on the
    contract was reasonable and in the best interest of the Government.




                                         2
            A. Use of Commercial Services Contract
            The Air Force improperly procured F-16 MTC simulator services using a
            commercial acquisition strategy. This option was used because
            contracting officials misinterpreted the definition of commercial services
            as defined by Federal acquisition policy. As a result, the Air Force
            restricted its ability to determine whether the price paid for F-16 simulator
            services was reasonable. In addition, the Air Force placed itself at a
            disadvantage in the event of a contract dispute. Specifically, Federal
            acquisition policy requires using a firm-fixed-price contract and prohibits
            requesting certified cost and pricing data for commercial acquisitions.


Federal Acquisition Policy
     The Federal Acquisition Streamlining Act of 1994 (Public Law 103-355)
     established acquisition policies encouraging the acquisition of commercial items
     and components.

     Commercial item services, as defined by FAR Part 2, “Definitions of Words and
     Terms,” include services of a type offered and sold competitively in substantial
     quantities in the commercial marketplace based on established catalog or market
     prices for specific tasks performed under standard commercial terms and
     conditions. This does not include services that are sold based on hourly rates
     without an established catalog or market price for the specific service performed.

     FAR Part 12, “Acquisition of Commercial Items,” states that Government
     agencies must use firm-fixed-price contracts or fixed-price contracts with
     economic price adjustment for the acquisition of commercial items. FAR Part 12
     prohibits the use of any other contract type to acquire commercial items. In
     addition, it requires agencies to complete market research to determine whether
     commercial items or nondevelopmental items are available that meet agency
     requirements.

     FAR Part 16, “Types of Contracts,” requires the use of firm-fixed-price type
     contracts when acquiring commercial items or services and allows the contracting
     officer to establish a reasonable price. Government agencies can establish the
     reasonable price for products and services using several methods:

            •   Identify adequate competition and compare all related costs.

            •   Compare prior purchases of the same or similar products or services
                supported by valid cost or pricing data or made on a competitive basis.

            •   Identify realistic estimates based on external cost or pricing data and
                on performance cost data.




                                          3
           •   Identify uncertainties regarding performance costs, cost impact, and
               reasonable estimates as they pertain to the potential contractor;
               consider whether the potential contractor is willing to accept the risks
               as defined in a firm-fixed-price contract.

    FAR Part 15, “Contracting by Negotiation,” encourages obtaining fair and
    reasonable prices based on price competition. According to FAR Part 15, when a
    reasonable price cannot be established, the contracting officer may obtain cost or
    pricing data from the Contractor. Part 15 states that when cost or pricing data are
    required, the contractor must submit certified cost or pricing data. A major
    difference between a FAR Part 15 and a Part 12 acquisition is that Part 12
    acquisitions prohibit the Government from obtaining cost or pricing data.


Commercial Services Procurement Strategy
    The Air Force improperly procured F-16 MTC simulator services using a
    commercial acquisition strategy. The Air Force used a commercial acquisition
    strategy because contracting officials misinterpreted the definition of commercial
    services as prescribed by the FAR.

    Air Force Determination of Commerciality for the F-16 MTC Requirement.
    The contracting officer prepared an official memorandum documenting the
    determination of commerciality for F-16 MTC services. The contracting officer
    outlined a review of the requirement against the criteria established in FAR Part 2
    and conducted market research. The market research identified simulator services
    of a type offered and sold competitively in substantial quantities in the
    commercial marketplace based on established catalog or market prices. One
    example cited the Boeing-McDonnell Douglas training division that was under
    contract to provide simulation services on the F-15 aircraft to the Air Force on a
    commercial basis, utilizing hourly rates. For other examples, the Air Force
    contracting officer downloaded information from the Internet on a number of
    commercial vendors who provide simulator services to the general public. The
    services were provided on simulator devices owned by the vendors for a variety
    of commercial aircraft. The vendors included Reflectone, Flight Studies, Flight
    Safety, and United Airlines Flight Center.

    For example, the memorandum specifically identified “dry” training services
    provided by Reflectone as being analogous to the F-16 MTC program. The dry
    training services involve the vendor making the simulator available to customers
    who provide their own training and do not require instructors or courseware. The
    cockpits and simulator services are owned and operated by Reflectone. Trainees
    use the simulators at Reflectone training centers in Tampa, Florida, and
    Washington, D.C.; both centers operate under the Reflectone Training Center
    division. Reflectone documentation states that one hour of dry full flight
    simulator time averages $400 before quantity discounts.

    Commerciality of F-16 MTC Services. The F-16 MTC program fails to meet
    the FAR definition of a commercial service for several reasons. A commercial
    market did not exist for the F-16 MTC simulator service to establish a reasonable


                                         4
    price by the forces of supply and demand. Although other simulator services are
    available in the commercial marketplace, the F-16 MTC simulator is military
    specific, complex in nature, and required significant funding and time for
    development.

    Commercial simulator services, such as those provided by Reflectone, are
    provided at the vendor’s facilities in flight simulators that have already been
    developed. In contrast, the F-16 MTC did not exist at the time of the acquisition
    and the Contractor did not offer or sell F-16 simulator services competitively in
    the commercial marketplace. Thus, the Air Force was the sole customer for F-16
    MTC simulator services. The Contractor was required to develop and deliver
    F-16 MTCs that provide simulator services to U.S. Air Force bases in accordance
    with Government-approved performance specifications. The contract was
    awarded in June 1999 but the delivery of the first cockpit simulator was not
    scheduled until December 2001. The long lead time allowed the Contractor to
    sufficiently develop and test the F-16 MTC to ensure it provided the required
    simulator services. The Air Force determination of commerciality did not address
    the significant development costs required to produce the F-16 MTC prior to the
    availability of simulator services. As part of the contract modification, the Air
    Force paid $73.3 million in nonrecurring development costs claimed by the
    Contractor. (See finding B for the discussion regarding the contract modification.)

    In addition, the hourly rates for F-16 MTC simulator services did not have
    established catalog or market prices for the specific service performed. One hour
    of dry full flight simulator time offered by Reflectone, described as analogous to
    the F-16 MTC program in the Air Force determination of commerciality,
    averaged $400 before quantity discounts. In contrast, the minimum contract value
    allowed for 18,948 simulator hours and resulted in an hourly rate of over $3,900.


Status of the F-16 MTC Contract
    On August 3, 2005, we briefed officials from the ASC Training Systems Product
    Group on our concerns with the use of FAR Part 12 commercial acquisition
    procedures to procure the F-16 MTC simulator services. ASC officials informed
    us that they were preparing to re-compete the F-16 MTC requirement in 2006
    again using the FAR Part 12 commercial item acquisition procedures. On
    August 19, 2005, we issued a memorandum to the Air Force stating that we
    disagree that the F-16 MTC requirement meets the definition of a commercial
    service (see Appendix B). Air Force officials provided a written response to our
    memorandum in December 2005 (see Appendix C). The Office of the Secretary
    of the Air Force (Acquisition) held a senior-level Acquisition Strategy Panel and
    determined that a FAR Part 15 services contract is the preferred approach.


Conclusion
    The use of a commercial item acquisition strategy and contract type was not
    appropriate for obtaining F-16 MTC simulator services. The strategy placed the
                                         5
    Air Force at a disadvantage because the Air Force was required to use a
    firm-fixed-price contract and was subsequently prohibited from requesting
    certified cost and pricing data. F-16 MTC simulator services do not exist in the
    commercial marketplace, and the Air Force restricted its ability to determine
    whether the price paid for F-16 simulator services was reasonable. Although the
    Air Force paid for the development and testing of the F-16 MTC simulator
    services (as well as invested significant time and indirect costs), the Contractor
    owns all the hardware and software. An appropriate procurement strategy and
    contract type should be used in accordance with FAR acquisition requirements.


Recommendation and Management Comments
    A. We recommend the Assistant Secretary of the Air Force (Acquisition)
    review and determine the appropriate use of commercial item procurement
    strategies when procuring future simulator services for Air Force unique
    weapons systems.

    Management Comments. The Military Deputy of the Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred with the finding and
    recommendation. The Deputy stated that the Air Force agrees with the
    recommendation to review the use of commercial item procurement strategies for
    future simulator services. The Deputy stated the Headquarters Air Force review
    group determined that a Federal Acquisition Regulation Part 15 Services contract
    would be the preferred approach to recompete the F-16 Mission Training Center
    contract.




                                         6
            B. F-16 MTC Contract Modification
            The Air Force did not comply with Federal acquisition policy when it
            modified a firm-fixed-price contract for F-16 MTC services to pay for
            nonrecurring (developmental) costs claimed by the Contractor. The
            modification occurred after nearly 2 years of deliberations between the
            contracting office and the Contractor because Darleen Druyun directed the
            modification. As a result, the Air Force committed itself to pay
            $41.6 million over its minimum contract obligation prior to receiving
            additional F-16 MTC services. In addition, the Air Force received
            minimal value from the consideration package it negotiated with the
            Contractor to justify the modification.


FAR Part 16 Requirements
     FAR Part 16, “Types of Contracts,” provides specific guidance on
     firm-fixed-price, requirements-type contracts. A firm-fixed-price contract, which
     best utilizes the basic profit motive of an enterprise, must be used when the risk
     involved is minimal or can be predicted with an acceptable degree of certainty.
     However, when a reasonable basis for firm pricing does not exist, other contract
     types should be considered. A firm-fixed-price contract provides for a price that
     is not subject to any adjustment on the basis of the contractor's cost experience in
     performing the contract. This contract type places upon the contractor maximum
     risk and full responsibility for all costs resulting in profit or loss.

     According to FAR Part 16, a requirements-type contract (in this case, a
     firm-fixed-price contract) allows a Government agency to procure supplies or
     services during a specified contract period with deliveries or performance to be
     scheduled by placing orders with the contractor. An indefinite quantity
     requirements-type contract may be used when the Government cannot
     predetermine, above a specified minimum, the precise quantities of products or
     services that will be required during the contract period, and when it is
     inadvisable for the Government to commit itself for more than a minimum
     quantity. The contracting officer must give contractors a realistic estimated total
     quantity of supplies or services in the solicitation and resulting contract. The
     FAR specifically states that this estimate is not a representation to a contractor
     that the estimated quantity will be required or ordered, or that conditions affecting
     requirements will be stable or normal. FAR Part 16 states that an indefinite-
     quantity contract should be used only when a recurring need is anticipated.


Events Leading to the Contract Modification
     Darleen Druyun directed a restructure of the firm-fixed-price, requirements-type
     contract that was used to acquire F-16 MTC services. Numerous events occurred



                                           7
between the time the Contractor raised concerns in August 2000 about the Air
Force intent to order fewer simulators than originally anticipated and the time the
modification was signed in June 2002.

F-16 MTC Contract Requirements. When the contract for F-16 MTC simulator
services was signed in June 1999, the requirements were established as indefinite
delivery and indefinite quantity. The minimum order involved limited F-16 MTC
simulator services in one cockpit at Shaw Air Force Base beginning in
December 2001. The minimum order also required an upgrade on the original
cockpit to full simulation services, three additional cockpits with full simulator
services at Shaw Air Force Base, and one cockpit with full simulator services at
Mountain Home Air Force Base in April 2002. The minimum order cost the Air
Force $74.4 million to have the F-16 MTC developed and delivered to the two
sites and for hourly simulator services for the basic contract term ending June
2006. The maximum order quantity was for F-16 MTC simulator services in a
total of 61 cockpits at 18 individual sites. The 61 cockpits included a 4-cockpit
mobile Mission Training Center. In August 2000, the Contractor raised concerns
about the scope of the contract because the Air Force no longer anticipated
ordering the maximum order quantity. The Contractor stated that it would incur
substantial losses because it spread its nonrecurring development costs across the
maximum schedule.

Joint ASC and Contractor Briefing to Darleen Druyun. On May 4, 2001, ASC
contracting officials and Contractor representatives briefed Druyun and requested
direction on whether to restructure the contract or execute it as written.
Contractor officials indicated that if the contract was executed as written, the
Contractor would be unable to accept additional orders. However, after
discussions with her staff and ASC senior contracting officials, Druyun directed a
contract restructure although she acknowledged that it might not be legal. As a
result, the Contractor was directed to submit a letter formally requesting a
contract restructure along with the rationale to Druyun and Air Force General
Counsel.

Contractor Request for Equitable Adjustment. On May 17, 2001, the
Contractor submitted a formal request for a restructure of the F-16 MTC contract
(see appendix D). However, the Contractor did not certify the request for
equitable adjustment. On May 23, 2001, Druyun outlined her decision to ASC
senior contracting officials to proceed with the restructure. Druyun indicated that
the Contractor was required to offer something of value (consideration) in order
for the Air Force to perform the contract restructure. However, Druyun then
stated that the Contractor’s decreased ability to recover nonrecurring costs and
lost opportunity costs, resulting from the Government’s funding constraints to
execute the original plan, provided the majority of consideration to justify the
restructure. ASC senior contracting officials agreed to document Druyun’s
direction and send a restructure justification package to her office for signature.

Druyun did not sign the direction package. The Contractor continued to pursue
the contract restructure and, in August 2001, sent memorandums to both the
contracting officer and Druyun. The Contractor indicated that even though
Druyun had made a decision in May 2001 to restructure the F-16 MTC contract,
the contracting officer had not yet issued a contract modification. The Contractor


                                     8
informed Druyun that further delay in restructure and activation of additional sites
would seriously impact the viability of the F-16 MTC program. The Contractor
requested Druyun encourage a sense of urgency in the adoption of the proposal.
Both Druyun’s staff and senior contracting officials indicated they were unable to
document further direction for a contract restructure that would not violate
contract and appropriation laws.

Annual Business Base Adjustment Provision. On September 27, 2001, the
ASC Director of Contracting chaired a meeting between the Contractor and ASC
contracting and program management officials. They agreed on a solution that
would incorporate a provision into the contract enabling annual adjustment
payments. The adjustment amount would be the difference between the
nonrecurring costs had all sites been activated (the maximum contract
requirement) and the nonrecurring costs recouped from actual site activations. In
order to execute the solution, the Contractor would need to identify the
nonrecurring costs for each year and for all sources. Air Force contracting
officials wrote a contract clause and established a funding mechanism to pay the
adjustment each year.

On October 3, 2001, the Contractor provided a letter to the Director of
Contracting requesting that the contracting team contribute to a quick and
mutually satisfactory closure of this issue. Specifically, the Contractor requested
the Air Force to proceed diligently with drafting an equitable adjustment clause
for the recovery of the nonrecurring investment. This involved conducting and
completing an audit to establish a mutually agreed-upon baseline for the
Contractor’s nonrecurring cost and defining a mutually acceptable and
appropriate approach to the issue of consideration.

As a result of the meeting and the letter from the Contractor, the ASC Director of
Contracting signed a memorandum for record that was provided to the contracting
officer. The memorandum stated:
       The contractor should not be required to absorb nonrecurring costs
       which cannot be recovered at all (i.e., failure to order predicted
       requirements) or which are recovered later than anticipated (i.e.,
       delayed ordering of predicted requirements). To remedy this situation I
       have advised the Contracting Officer to amend the contract with a
       special provision which will permit an annual adjustment to the
       contract, which will account for any documented harm associated with
       the contractor’s inability to recover nonrecurring costs during the prior
       year, according to the circumstances cited above. I have further
       advised the program team to “baseline” the contractor’s proposed and
       actual nonrecurring costs and planned recoupment profile, for use in
       any annual adjustment necessary at some later time(s). Lastly, I have
       encouraged the program team to obtain consideration from the
       contractor in exchange, and as authority, for this contract modification.

In response to the memorandum, the contracting officer developed a draft
Business Base Adjustment provision to address the Contractor’s recoupment of
the nonrecurring costs.


                                          9
Validation of Nonrecurring Costs
     The Contractor indicated in the request for equitable adjustment that it had
     incurred approximately $73.3 million in nonrecurring costs. Because this
     requirement was procured as a FAR Part 12 commercial service, the Air Force
     was prohibited from requiring actual and certified cost or pricing data (finding A).
     However, the contracting officer attempted to obtain other cost and pricing data to
     support the Contractor’s claimed nonrecurring costs. The contracting officer
     stated that prior to a contract modification, the Contractor must provide audit
     quality cost information to verify that the budgeted nonrecurring costs were
     reasonable. The contracting officer also stated that cost information should detail
     the Contractor’s original budget for the initial contract, the actual cost, and the
     estimate to complete for each identified work element. In response, the
     Contractor indicated that the request implied that the Government intended to go
     beyond an audit of the nonrecurring baseline and conduct a pricing audit. The
     Contractor did not understand the purpose and value of this exercise and believed
     they had provided sufficient details of nonrecurring costs and a breakdown of
     work elements to support an audit of the nonrecurring baseline.

     The contracting officer requested that the Defense Contract Audit Agency
     perform an agreed-upon procedures review of the nonrecurring baseline costs.
     The review focused on the budgeted nonrecurring costs rather than actual costs
     incurred. The review concluded that $24.6 million in nonrecurring costs could
     not be verified to subcontracts and purchase orders.

     This was the second time Air Force contracting officials received information that
     showed that the nonrecurring costs were not supported by costs incurred by the
     Contractor. Prior to the joint ASC and Contractor briefing provided to Druyun in
     May 2001, ASC contracting officials performed a review of the Contractor’s
     nonrecurring costs. ASC officials indicated that not only were they skeptical
     whether the Contractor’s nonrecurring costs actually totaled as much as
     $73.3 million, but also confident that the costs did not exceed that amount. This
     skepticism was based in large part on the fact that the majority of the components
     for the F-16 MTC were commercially available or nondevelopmental. ASC
     officials indicated there was little visibility into the Contractor’s recurring versus
     nonrecurring costs associated with products or services subcontracted. The
     subcontracted amounts made up over half of the value of the stated nonrecurring
     costs.


Modification of the F-16 MTC Contract
     On June 28, 2002, contracting officials signed modification number P00008 to the
     contract for F-16 MTC services. The modification established four contract line
     items for the payment of annual nonrecurring adjustments for 2002 through 2005.
     The Director of Contracting believed that the action was a “no cost” modification
     because the contract ceiling price would not be increased and the Contractor was
     providing consideration. The contract modification was made based on a clause
     contained in the contract which stated that changes in the terms and conditions of


                                          10
the contract could be made only by written agreement of the parties. However,
the modification required the Air Force to pay $41.6 million above its minimum
contract obligation prior to receiving additional F-16 MTC services. In addition,
we determined that the Air Force received minimal value from the consideration
package it negotiated with the Contractor to justify the modification.

Increase of Minimum Contract Obligation by $41.6 Million. The minimum
order obligated the Air Force to pay $74.4 million to have the F-16 MTC set up at
two sites and for hourly simulator services for the basic contract term ending
June 2006. Because this was a firm-fixed-price, requirements-type contract for
commercial simulator services, the minimum obligation did not specifically
address nonrecurring development costs. However, the Contractor claimed that it
had incurred $73.3 million in nonrecurring costs and that it had only recovered
$31.7 million of these costs through preparatory services at the two initial sites
included as part of the minimum order. The Contractor claimed that it had spread
its nonrecurring costs across all 18 sites in the maximum schedule and that the
modification would allow recovery of the remaining portion. Because this was a
requirements-type contract, the Air Force only received additional simulator
services when it placed orders for additional site activations. However, the
modification obligated the Air Force to pay the remaining $41.6 million of
nonrecurring costs but did not cover any additional site activations or additional
simulator services to be provided by the Contractor.

Consideration Justifying the Contract Modification. The contracting officer
made a decision to accept all the nonrecurring costs claimed by the Contractor
and offset the $24.6 million of questionable costs identified by the Defense
Contract Audit Agency with a consideration package. The contracting officer
worked with the F-16 MTC program manager, the Air Combat Command user
representative, and Distributed Mission Training engineers to identify potential
items of value (consideration) to the Air Force to justify a contract restructure.
The three items negotiated with the Contractor were assigned a total value of
$26.5 million and included unclassified software loads, engine run training, and a
release of all future claims.

The unclassified software loads were assigned a value of $4 million and were
intended to be used to demonstrate simulator capabilities to persons lacking
appropriate security clearances to the simulator environment. The engine run
training capability was assigned a value of $5 million and was intended to allow
F-16 operation crew chiefs and engine specialists to use the simulator to become
qualified and certified on ground-based normal and emergency engine operating
procedures. The release of all future claims was assigned a value of $17.5 million
and allowed for language to be included in the modification indicating that the
supplement agreement constitutes full and final settlement of any and all claims
that may arise as result of any changes to the estimated simulation service
schedule of the contract.

Value Received from the Consideration Package. We determined that the Air
Force received minimal value from the consideration package negotiated with the
Contractor. The ASC General Counsel official who reviewed the consideration
package informed us that she did not substantiate the value assigned to the
consideration package and relied on contracting officials who determined that it
                                    11
     was adequate. In our opinion, the unclassified software loads did not represent an
     additional capability or benefit because the purpose of the F-16 MTC was to
     provide the capability to train pilots in combat situations. In addition, the
     methodology used to calculate the value for the engine run training was
     improperly based on an assumption that all 18 sites on the maximum schedule
     would be activated. However, when we contacted officials in November 2005,
     only four sites were activated and none of these sites were using the engine run
     training capability. Further, the value assigned to the release of claims was
     unsubstantiated. The Air Force purchased F-16 MTC simulation services through
     a requirements-type contract with a specified minimum quantity. At the time of
     the modification, the Air Force had ordered the required minimum quantity and
     had met its contractual obligations. The requirements contract did not obligate
     the Air Force to pay Contractor costs unless additional requirements were
     ordered.


Conclusion
     The Air Force did not comply with Federal acquisition policy when it modified
     the firm-fixed-price contract for F-16 MTC services to pay for nonrecurring
     (developmental) costs that were claimed by the Contractor. The modification
     occurred after nearly two years of deliberations between the contracting office
     and the Contractor because Darleen Druyun directed the modification. The FAR
     states that the price in a firm-fixed-price contract is not subject to any adjustment
     on the basis of the contractor's cost experience in performing the contract. The
     Contractor agreed to a firm-fixed-price contract and accepted the associated risks.
     The use of a commercial item acquisition strategy prohibited the Air Force from
     obtaining certified cost data to support whether the nonrecurring costs claimed by
     the Contractor were reasonable. As a result, the Air Force committed itself to pay
     $41.6 million over its minimum contract obligation prior to receiving additional
     F-16 MTC services. In addition, the Air Force received minimal value from the
     consideration package it negotiated with the Contractor to justify the
     modification.


Other Matters of Interest
     In addition to Shaw and Mountain Home Air Force Bases, the Air Force only
     activated two other sites. Therefore, only 14 cockpits at 4 sites were activated of
     the 61 total cockpits at 18 sites estimated in the maximum schedule. The Air
     Force made a decision in July 2004 not to activate additional sites because of
     concurrency and performance issues. The existing contract for F-16 MTC
     simulator services is scheduled to expire in June 2007. The Air Force is in the
     process of preparing a new solicitation package for the F-16 MTC requirement.
     As part of the memorandum we issued in August 2005, we requested that the Air
     Force perform a thorough review of the contract modification prior to making the
     final nonrecurring adjustment payment. The Air Force agreed to conduct the
     review. The Air Force determined that it would breach the contract if it did not
     make the final payment even though the modification was not in the best interest


                                          12
    of the Government. We continue to review the Air Force management and
    oversight of the contract and plan to summarize the results in a separate report.


Recommendation and Management Comments
    B. We recommend the Assistant Secretary of the Air Force (Acquisition)
    establish management controls to prevent senior acquisition personnel from
    directing contract adjustments that are not in accordance with Federal
    acquisition policy.

    Management Comments. The Military Deputy of the Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred with the finding and the
    recommendation. The Deputy stated that the Principle Deputy Assistant
    Secretary of the Air Force position has been eliminated, and the responsibilities of
    that office have been redistributed to more appropriate levels of oversight
    consistent with the Federal Acquisition Regulation. The Air Force has created an
    ombudsman and strengthened the contract clearance process to ensure compliance
    with Federal Acquisition Policy. The Deputy stated the Air Force will continue to
    review the acquisition process and implement more effective management
    controls to prevent senior acquisition personnel from exerting inappropriate
    influence on contract actions.




                                         13
Appendix A. Scope and Methodology
     The audit was preformed at the request of the acting Under Secretary of Defense
     for Acquisition, Technology, and Logistics. For this audit, we determined
     whether the restructuring of the contract for F-16 MTC simulator services was in
     accordance with the FAR.

     We performed this audit at ASC Headquarters, Air Combat Command
     Headquarters, and Shaw and Mountain Home Air Force Bases from May 2005
     through January 2006 in accordance with generally accepted government auditing
     standards.

     We reviewed the FAR and the Defense FAR Supplement. We reviewed the F-16
     MTC simulator service request for proposal, contractor solicitations, contract
     files, briefing charts, memorandums, and relevant correspondence. We
     interviewed ASC personnel including the Chief of Contract Management,
     Contracting Officer, Program Manager, and General Counsel. We also
     interviewed personnel from the Defense Contract Audit Agency and Defense
     Contract Management Agency. We analyzed the F-16 MTC simulator service
     pricing schedules to determine a minimum and maximum contract value. Our
     scope was limited in that we did not verify the accuracy of the nonrecurring costs
     claimed by the contractor. In addition, the scope of the audit was limited in that
     we did not review the managers’ internal control program.

     Use of Computer-Processed Data. We did not use computer-processed data to
     perform this audit.

     Government Accountability Office High-Risk Area. The Government
     Accountability Office has identified several high-risk areas in DoD. This report
     provides coverage of the DoD Contract Management high-risk area.


Prior Coverage
     During the last 5 years, the Air Force Audit Agency has issued two reports
     discussing the F-16 MTC. Air Force Audit Agency reports can be accessed over
     the Internet at http://www.afaa.hq.af.mil.

Air Force
     Air Force Audit Agency Report No. F2005-0039-FBN000, “F-16 Simulators,
     366th Fighter Wing, Mountain Home Air Force Base, ID,” May 2, 2005

     Air Force Audit Agency Report No. F2004-0051-FDM000, “Flight Simulator
     Utilization, 20th Fighter Wing, Shaw Air Force Base, SC,” May 5, 2004




                                         14
16
17
18
Appendix C. Air Force Response to DoD IG
            Interim Results Letter




                     19
Appendix D. Contractor Request for Equitable
            Adjustment




                     20
21
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        23
Office of the Assistant Secretary of the Air Force
(Acquisition) Comments




                        25
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.
Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Amy J. Frontz
Anthony C. Hans
James C. Darrough
Brian M. Stumpo
Erin S. Hart
Ann Thompson
